HHS/OIG-Audit--"Administrative Costs Claimed Under Part A of the Health Insurance for the Aged and Disabled Program - Blue Cross of Western Pennsylvania, (A-03-90-02003)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Administrative Costs Claimed Under Part A of the Health Insurance for the Aged and Disabled Program - Blue Cross
of Western Pennsylvania," (A-03-90-02003)
August 20, 1993
Complete
Text of Report is available in PDF format (1.94 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Blue Cross of Western Pennsylvania claimed approximately $2.2 million in unallowable
costs for administering the Medicare Part A program. The unallowable costs consisted of: rental costs of $1,159,389 which
were claimed but not incurred; costs of $347,178 for unspecified projects that were not approved by the Health Care Financing
Administration (HCFA); credits totaling $687,640 that were due but not used to offset Medicare costs; and $24,321 that
was misclassified or based on estimated rather than actual costs. We recommended financial adjustments and procedural improvements.
Regional HCFA officials concurred with our findings and recommendations.